UPpcHURCH BAILEY AND UPCHURCH

ATTORNEYS AT L
SIDNEY F. ANSBACHER bandit AT LAW FRANK D. UPCHURCH, SR.
JOHN D. BAILEY, JR.

(1894-1986)
780 North Ponce de Leon Boulevard
ALLYSON BOYLES CURRIE St. Augustine, Florida 32084
AMANDA. DEAN Adie eel HAMILTON D. UPCHURCI
STEPHEN A. FAUSTINI . UPCHURCH
Telephone (904) 829-9066 (1925-2008)
KATHERINE GAERTNER JONES

Facsimile (904) 825-4862
MICHAEL A. SIRAGUSA

Please reply to:
FRANK D. UPCHURCH Ill Post Office Drawer 3007 FRANK D. UPCHURCH, JR.
DONALD W. WALLIS St. Augustine, Florida 32085-3007

(1922-2012)

Honorable Scott S. Harris

Clerk, Supreme Court of the United States
One First Street NE

Washington, DC 20543

Re: — Steven T. Waltner and Sarah V. Waltner v. Commissioner of Internal Revenue
Petition for a Writ of Certiorari

RULE 33.1(h) CERTIFICATE OF COMPLIANCE

Dear Mr. Harris:

As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ of
Certiorari contains 8,476 words, excluding the parts of the Petition that are exempted by

Supreme Court Rule 33.1(d). I declare under penalty of perjury that the foregoing is true and
correct.

Executed on September24, 2019.

 

Donald W. Wallis, Esq.
